          Office of Inspector General




March 28, 2006

CHARLES E. HOWE
MANAGER, GREATER INDIANA DISTRICT

SUBJECT: Transmittal of Audit Report – City Letter Carrier Operations – Greater
         Indiana District (Report Number DR-AR-06-003)

This report presents the results of our self-initiated audit of City Letter Carrier
Operations in the Greater Indiana District (Project Number 05YG007DR001). This is
the fifth in a series of six reports on city letter carrier operations issued under the Value
Proposition Agreement between the vice president, Delivery and Retail, and the U.S.
Postal Service Office of Inspector General’s (OIG) Delivery and Retail directorate. The
overall objective was to assess the management of city letter carrier operations.

The Greater Indiana District can improve the management of city letter carrier
operations. Specifically:

   •   Delivery facility supervisors and managers could more effectively match
       workhours with workload when approving U.S. Postal Service Forms 3996,
       Carrier - Auxiliary Control. We projected the sample results for a total of
       68,177 unjustified hours representing over $2.6 million for the 5-month period
       January 1 through May 31, 2005. However, we agreed with Postal Service
       Headquarters management to unrecoverable costs of 50 percent of the total
       variance in the Web Enabled Enterprise Information System as a reasonable
       target of opportunity to achieve. These unrecoverable costs amounted to
       $765,487 and will be reported as such in our Semiannual Report to Congress.

   •   Delivery facility supervisors and managers did not use the Workload Status
       Report in a timely manner to manage daily operations. The district needs to
       make some improvement in timely use of two other Delivery Operations
       Information System (DOIS) reports.

   •   Delivery facility supervisors and managers need to more effectively use the
       Managed Service Points (MSP) base information to monitor carrier performance.

   •   Delivery facility supervisors and managers did not consistently track and
       document letter carriers’ unauthorized overtime occurrences and take
       appropriate corrective action.
We recommended the manager, Greater Indiana District, direct station managers and
supervisors to enforce the policy for carriers to complete required forms when volume or
workload indicates that additional time on the route is needed. In addition, we
recommended the manager require supervisors and managers to use DOIS reports
daily and in a timely manner to manage operations. We also recommended requiring
supervisors and managers to update MSP base information when routes change, and to
properly document unauthorized overtime and take corrective action.

Management agreed with our findings and recommendations and has initiatives
completed and planned addressing the findings and recommendations in this report.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
director, Delivery and Retail, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Ellis A. Burgoyne
    James Kiser
    JoAnn Feindt
    Steven R. Phelps
City Letter Carrier Operations –                                      DR-AR-06-003
 Greater Indiana District


                                   TABLE OF CONTENTS

 Executive Summary                                                              I

 Part I

 Introduction                                                                  1

     Background                                                                1
     Objectives, Scope, and Methodology                                        4
     Prior Audit Coverage                                                      5

 Part II

 Audit Results                                                                 6

 City Letter Carrier Operations                                                6
 Workhours to Workload                                                         6
     Unjustified Time                                                          7
     PS Form 3996, Carrier – Auxiliary Control                                 8
 Recommendations                                                               8
 Management’s Comments                                                         9
 Evaluation of Management’s Comments                                           9

 Supervisors’ Use of Delivery Operations Information System Reports           10
 Recommendations                                                              11
 Management’s Comments                                                        11
 Evaluation of Management’s Comments                                          12

 Managed Service Points Base Information                                      13
 Recommendation                                                               13
 Management’s Comments                                                        13
 Evaluation of Management’s Comments                                          13

 Unauthorized Time                                                            14
 Recommendation                                                               15
 Management’s Comments                                                        15
 Evaluation of Management’s Comments                                          15

 Appendix A. Summary of 120 “3996 Audits”                                     16

 Appendix B. Projection of “3996 Audit” Results Over 5-Month Period           20

 Appendix C. Technical Documentation                                          21
City Letter Carrier Operations –                      DR-AR-06-003
 Greater Indiana District



 Appendix D. OIG Calculation of Unrecoverable Costs           22

 Appendix E. Prior Audit Coverage                             23

 Appendix F. Management’s Comments                            25
City Letter Carrier Operations –                                                                        DR-AR-06-003
 Greater Indiana District


                                           EXECUTIVE SUMMARY
    Introduction                       This report presents the results of our self-initiated audit of
                                       city letter carrier operations in the Greater Indiana District.
                                       The overall objective was to assess the management of city
                                       letter carrier operations.

    Results in Brief                   Opportunities existed to improve the management of city
                                       letter carrier operations in the Greater Indiana District.
                                       Specifically:

                                            •    Delivery facility supervisors and managers did not
                                                 adequately match workhours with workload. This
                                                 occurred primarily because carriers did not always
                                                 submit U.S. Postal Service (PS) Forms 3996,
                                                 Carrier – Auxiliary Control, to document their
                                                 requests for additional time. As a result, we
                                                 projected that from January 1 through May 31, 2005,
                                                 the six delivery facilities had 17,785 unjustified hours
                                                 not supported by volume or workload. We projected
                                                 the sample results to all 23 similarly sized delivery
                                                 facilities in the district, for a total of 68,177 unjustified
                                                 hours. By agreement with headquarters
                                                 management, we informed the Greater Indiana
                                                 District that 50 percent1 of the total variance in the
                                                 Web Enabled Enterprise Information System, or
                                                 $765,487,2 will be used as unrecoverable costs and a
                                                 reasonable target of opportunity. (See Appendix D.)

                                             •   Supervisors and managers did not review the
                                                 Delivery Operations Information System (DOIS)
                                                 Workload Status, Route/Carrier Daily Performance,
                                                 and Managed Service Points (MSP) Overview
                                                 Reports in a timely manner to manage daily
                                                 operations.

                                            •    Supervisors and managers needed to use MSP base
                                                 information to monitor carrier performance more
                                                 effectively. This occurred because supervisors had
                                                 not updated route pivot plans to include the lunch
                                                 interval in MSP base information.


1
    Postal Service officials believed a reduction of 50 percent of the variance was a reasonable target.
2
    Fifty percent of the total variance for January 1 through May 31, 2005, for the 23 facilities with 30 to 55 routes.



                                                               i
City Letter Carrier Operations –                                                   DR-AR-06-003
 Greater Indiana District




                                      •   Supervisors and managers did not always properly
                                          track and document letter carriers’ unauthorized
                                          overtime and take corrective action to help manage
                                          overtime issues. Supervisors stated they talked
                                          informally with carriers but often did not keep a log.

 Summary of                        We recommended the manager, Greater Indiana District,
 Recommendations                   direct station managers and supervisors to enforce the
                                   policy for carriers to complete required forms when volume
                                   or workload indicates that additional time on the route is
                                   needed. In addition, we recommended the manager require
                                   supervisors and managers to use DOIS reports daily and in
                                   a timely manner to manage operations. We also
                                   recommended requiring supervisors and managers to
                                   update MSP base information when routes change, and to
                                   properly document unauthorized overtime and take
                                   corrective action.

 Summary of                        Management agreed with our findings and
 Management’s                      recommendations and has taken or planned corrective
 Comments                          actions. Management is conducting a training program
                                   called the Delivery Management Academy for Supervisors
                                   (DMAS). DMAS training will focus on the basics of delivery
                                   management, DOIS management, daily carrier
                                   management, and standardizing tools and techniques.
                                   Management’s comments, in their entirety, are included in
                                   Appendix F of this report.

 Overall Evaluation of             Management’s actions taken or planned are responsive to
 Management’s                      our findings and recommendations and should correct the
 Comments                          issues identified in our report.




                                                    ii
City Letter Carrier Operations –                                                              DR-AR-06-003
 Greater Indiana District


                                       INTRODUCTION
    Background                     Each day the U.S. Postal Service receives and delivers over
                                   680 million pieces of mail. The mail is delivered to
                                   143 million addresses across a network of 38,000 post
                                   offices and retail outlets. The Delivery Operations
                                   Information System (DOIS), deployed in fiscal year
                                   (FY) 2002, provides operational data to the delivery facility
                                   supervisors and managers to help them manage daily
                                   carrier operations and reduce costs. This data includes mail
                                   volume, mail arrival and dispatch times, and projected office
                                   and street hours for routes.

                                   Delivery operations constitute 46 percent of the workhours
                                   in the FY 2006 field operating budget, which is mainly
                                   attributable to office and street workhours. (See Figure 1.)
                                   Salary and benefits for rural and city carriers totaled
                                   approximately $22 billion. Also, in the FY 2006 field budget,
                                   the Postal Service established a goal to reduce delivery
                                   workhours by 6.9 million hours. City delivery hours are
                                   budgeted as 72 percent of total delivery workhours.3

                                    Figure 1. FY 2006 Field Budget Workhours


                                                                       46%




                                                                                         8%




                                                           22%                       16%

                                                                       3% 5%

                                                Support, Finance, Human Resources and Marketing
                                                Mail Processing
                                                Delivery
                                                Vehicle Service and Plant Maintenance
                                                Customer Service
                                                Field Administration

                                                  Source – Postal Service FY 2006 Field Budget



3
 Management budgeted total delivery workhours for FY 2006 at 636,199,952. Of the total delivery
workhours, management charged 456,071,701 (or 72 percent) to the city delivery function code (2B).

                                                    1
City Letter Carrier Operations –                                                                 DR-AR-06-003
 Greater Indiana District


                                   The Great Lakes Area consists of 839 DOIS delivery
                                   facilities4 in nine districts. The Great Lakes Area’s FY 2006
                                   budget performance goal is to reduce city delivery
                                   workhours by 682,858, representing a cost savings of
                                   $25,284,442.5 The Greater Indiana District ranks second in
                                   the Great Lakes Area with 132 DOIS delivery facilities
                                   comprising 2,542 city delivery routes.

                                   Each delivery facility’s mail volume, mail arrival and
                                   dispatch times, and office and street hours vary and are
                                   managed by the delivery facility supervisor or manager. In
                                   addition, routes in a city delivery facility have an established
                                   office and street time (usually 8 hours) based on the last
                                   route inspection. One aspect of daily delivery facility
                                   operations is city letter carriers’ preparing and submitting
                                   Postal Service (PS) Form 3996, Carrier – Auxiliary Control,
                                   to request overtime or assistance on their routes. The
                                   supervisor reviews each request and either approves the
                                   additional time, decreases the time, assigns assistance,
                                   curtails mail, or denies the carrier’s request. The supervisor
                                   bases this decision on the daily workload or mail volume
                                   received in the delivery facility.

                                   Unauthorized time is time worked that is not authorized by
                                   the supervisor. For example, when a carrier requests
                                   1 hour of additional time, but uses 1 hour and 30 minutes,
                                   the extra 30 minutes is unauthorized time. Unjustified time
                                   occurs when the workload or volume does not support the
                                   hours used. In the example above, if the carrier worked
                                   1 hour and 30 minutes of extra time, but the workload
                                   supported only 30 minutes, the extra 1 hour would be
                                   classified as unjustified time. A carrier can have both
                                   unauthorized and unjustified time, simultaneously.

                                   To determine the amount of unauthorized and unjustified
                                   overtime on routes, a “3996 audit” of a delivery facility’s
                                   activities can be performed. Using the DOIS Workload




4
  A DOIS delivery facility is a building with one or more delivery units that can access DOIS to manage daily
delivery operations. A delivery unit is a group of routes that usually belong to a ZIP Code. However, some
ZIP Codes with a few routes can be combined to form one delivery unit, and a ZIP Code with a large number
of routes may be split into more than one delivery unit.
5
  Memorandum dated June 24, 2005, FY 2006 Area Targets.

                                                     2
City Letter Carrier Operations –                                                               DR-AR-06-003
 Greater Indiana District



                                   Status Report,6 PS Form 3996,7 and the Route/Carrier Daily
                                   Performance Report,8 several factors are reviewed:

                                            •    The amount of time the carrier requests for the
                                                 route.

                                            •    The amount of time the supervisor approves for
                                                 the route.

                                            •    The total time the carrier uses on the route.

                                            •    The justified and unjustified time.

                                   In addition to reviewing PS Forms 3996, an analysis of the
                                   completed PS Forms 1017-B, Unauthorized Overtime
                                   Record, can determine whether supervisors are correcting
                                   carriers' performance issues.

                                   Managed Service Points (MSP) is a computerized tool
                                   designed to monitor consistency of delivery time and
                                   enhance street management. Letter carriers use mobile
                                   data collection devices (MDCD) to scan barcodes placed at
                                   service points reflecting key locations of the employee
                                   workday. Seven basic scan points are required:

                                            1.   Hot Case9
                                            2.   Depart to Route
                                            3.   First Delivery
                                            4.   Last Delivery Before Lunch
                                            5.   First Delivery After Lunch
                                            6.   Last Delivery
                                            7.   Return to Office

                                   At the conclusion of each workday, the carrier downloads
                                   the MSP data from the MDCD into DOIS. Management
                                   compares this data to the route MSP base information
                                   employees store in DOIS to generate the reports
                                   supervisors use to evaluate the carrier’s performance.
6
  Workload Status Reports give management data such as volume, parcel, and delivery point sequenced
mail for use in making effective decisions in matching workhours to workload.
7
  Carriers complete PS Forms 3996 to request overtime or auxiliary assistance on their routes for days when
they estimate the route will exceed 8 hours because of workload and volume.
8
  The Route/Carrier Daily Performance Report assists supervisors in evaluating the performances of all
routes within a delivery unit for a single day.
9
  A hot case is a location within the delivery facility where employees resort mail missent from the
processing plant and give it to the assigned carrier.


                                                    3
City Letter Carrier Operations –                                                   DR-AR-06-003
 Greater Indiana District




 Objectives, Scope,                Our overall objective was to assess the management of city
 and Methodology                   letter carrier operations. Specifically, we determined
                                   whether delivery supervisors and managers adequately
                                   matched workhours with workload, used DOIS reports in a
                                   timely manner to manage operations, and effectively used
                                   MSP base information to monitor carrier performance.

                                   Additionally, we assessed whether delivery facility
                                   supervisors and managers properly tracked unauthorized
                                   time by documenting letter carriers’ unauthorized time and
                                   taking corrective action. Our audit scope included reviewing
                                   city letter carrier operations for the 5-month period
                                   January 1 through May 31, 2005.

                                   To accomplish our objectives, we randomly selected
                                   six delivery facilities in the Greater Indiana District with
                                   between 30 and 55 routes: XXXXXXXXXXXXXXXXXX
                                   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX, and
                                   XXXXXXXX. To determine whether delivery facility
                                   supervisors adequately matched workhours with workload,
                                   we randomly selected 20 days for each delivery facility and
                                   conducted “3996 audits” for each day to quantify the amount
                                   of unjustified time. We also observed the delivery facility
                                   supervisors’ and station managers’ morning activities of
                                   measuring and recording mail volume, reviewing Workload
                                   Status Reports, and approving overtime.

                                   To determine whether delivery facility supervisors and
                                   managers effectively used DOIS reports and in a timely
                                   manner, we analyzed the time each day that supervisors
                                   first generated the Workload Status, Route/Carrier Daily
                                   Performance, and MSP Overview Reports. We also
                                   reviewed the MSP base information for all routes at the
                                   six delivery facilities and reviewed the use of the log for PS
                                   Forms 1017-B.

                                   We conducted this audit from August 2005 through
                                   March 2006, in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We relied on data obtained from the Web
                                   Enabled Enterprise Information System (WebEIS) and
                                   DOIS. We did not audit these systems, but performed a
                                   limited review of data integrity to support our data reliance.
                                   We discussed our observations and conclusions with


                                                 4
City Letter Carrier Operations –                                                 DR-AR-06-003
 Greater Indiana District


                                   management officials and included their comments where
                                   appropriate.

 Prior Audit Coverage              The U.S. Postal Service Office of Inspector General (OIG)
                                   has issued four audit reports related to our objectives. The
                                   four reports, summarized in Appendix E, all identified
                                   opportunities to improve the management of city letter
                                   carrier operations at the districts audited.




                                                5
City Letter Carrier Operations –                                                       DR-AR-06-003
 Greater Indiana District


                                      AUDIT RESULTS
 City Letter Carrier               Opportunities existed to improve the management of city
 Operations                        letter carrier operations in the Greater Indiana District.
                                   Specifically:

                                      •   Delivery facility supervisors and managers did not
                                          adequately match workhours with workload. As
                                          a result, we projected that from January 1 through
                                          May 31, 2005, the six delivery facilities had
                                          17,785 unjustified hours not supported by volume
                                          or workload. We projected the sample results to all
                                          23 similarly sized delivery facilities in the district, for a
                                          total of 68,177 unjustified hours. Headquarters
                                          management and the OIG agreed to unrecoverable
                                          costs of 50 percent of the total variance in WebEIS,
                                          which amounts to $765,487. (See Appendix D.)

                                      •   Supervisors and managers did not review the
                                          Workload Status Report, DOIS Route/Carrier Daily
                                          Performance, and MSP Overview Reports in a timely
                                          manner to manage daily operations.

                                      •   Supervisors and managers needed to more
                                          effectively use MSP base information to monitor
                                          carrier performance.

                                      •   Supervisors and managers did not always properly
                                          document letter carriers’ unauthorized overtime and
                                          take corrective action.

 Workhours to                      Delivery facility supervisors and managers did not
 Workload                          effectively match workhours with workload. For January 1
                                   through May 31, 2005, we projected the sample results in
                                   the 23 similarly sized delivery facilities, for a total of
                                   68,177 unjustified hours with unrecoverable costs of
                                   $2,654,131. The unjustified hours occurred primarily
                                   because carriers often did not submit PS Forms 3996 to
                                   document their requests for additional time. In addition,
                                   carriers did not always properly complete PS Forms 3996,
                                   and supervisors did not always approve carriers’ requests.

                                   Postal Service Policy states that it is the carrier’s
                                   responsibility to complete items on PS Form 3996 if




                                                 6
City Letter Carrier Operations –                                                             DR-AR-06-003
 Greater Indiana District


                                   overtime or auxiliary assistance is authorized for the office or
                                   the street.10

                                   Postal Service policy states that effective day-to-day
                                   management of a delivery facility requires evaluation of the
                                   facility’s daily mail volume. The Postal Service uses volume
                                   data daily to assess the workhours needed for any given
                                   day.11

 Unjustified Time                  We analyzed information from the six facilities12 and
                                   conducted “3996 audits” for 12013 days at six randomly
                                   sampled facilities from January 1 through May 31, 2005.
                                   The “3996 audits” identified 2,857 unjustified hours
                                   (94 percent) of the total 3,048 hours that were expended on
                                   routes with time used over 8 hours. We projected the
                                   sample results to all 23 similarly sized delivery facilities in
                                   the district, for a total of 68,177 unjustified hours at a
                                   projected cost of over $2.6 million.14

                                   The “3996 audit” process assesses individual route time
                                   used over 8 hours. The audit process cannot differentiate
                                   between time that is actually unjustified and time not
                                   supported by documentation. The Total Variance Factor in
                                   the Postal Service’s WebEIS shows the difference between
                                   projected workhours for the workload identified in DOIS and
                                   the actual workhours carriers used. Headquarters
                                   management and the OIG agreed to 50 percent of the total
                                   WebEIS variance from January 1 to May 31, 2005, as
                                   unrecoverable costs, which amounts to $765,487.15




10
   Postal Service Handbook M-41, City Delivery Carrier Duties and Responsibilities, Section 131.41
(updated with Postal Bulletin revisions through April 2001).
11
   Management Instruction PO-610-2000-1, Piece Count Recording System, dated December 2000.
12
   DOIS Workload Status Reports, PS Forms 3996, and Route/Carrier Daily Performance Reports.
13
   We randomly selected 20 days at each of the six facilities to conduct “3996 audits,” and completed
120 “3996 audits.”
14
   Postal Service Finance memorandum dated March 7, 2005, shows the national average labor rate for city
letter carriers in FY 2005 was $38.93. The 68,177 hours multiplied by $38.93 equals $2,654,130.
15
   WebEIS shows the total variance between projected workhours for the workload identified in DOIS and
the actual workhours carriers used. The total variance for the 23 similarly sized delivery facilities is
$1,530,974.81 for January 1 through May 31, 2005.

                                                   7
City Letter Carrier Operations –                                                               DR-AR-06-003
 Greater Indiana District



 PS Form 3996,                     Carriers did not often submit PS Forms 3996 to request
 Carrier – Auxiliary               additional time for routes. Of the days we reviewed,
 Control                           1,826 of the 2,857 total unjustified hours (64 percent) were
                                   the result of carriers not submitting the form. This occurred
                                   because delivery facility management did not emphasize the
                                   use of the form as a tool to help manage daily operations.
                                   Instead, supervisors verbally discussed workload issues with
                                   carriers.

                                   When carriers submitted PS Forms 3996, they did not
                                   always properly document their requests for additional time.
                                   For example, carriers listed reasons on Form 3996 for
                                   overtime, but did not list a corresponding amount of time. In
                                   addition, supervisors did not always approve or disapprove
                                   carrier requests. Finally, supervisors did not always keep
                                   route base information readily available to show base
                                   parcels, accountables, and full coverage time used in
                                   making decisions regarding a route.

                                   Postal Service policy states that the carrier must show the
                                   reason for requesting assistance on his/her route in detail on
                                   PS Form 3996.16 In addition, PS Form 3996 has a section
                                   for management to complete and sign to approve or
                                   disapprove carrier overtime requests.

                                   The delivery facilities incurred unjustified workhours
                                   because carriers did not submit PS Forms 3996, carriers
                                   and supervisors did not properly complete the submitted
                                   forms, and supervisors did not have base data readily
                                   available to make decisions regarding the routes.

 Recommendations                   We recommend the district manager, Greater Indiana
                                   District:

                                       1. Direct station managers and supervisors to enforce
                                          the policy for carriers to complete Postal Service
                                          Form 3996, Carrier – Auxiliary Control, when
                                          workload or volume indicates the carrier will need
                                          additional time for the route, and require carriers to
                                          properly document reasons for their requests for
                                          additional time.



16
  Postal Service Handbook M-41, City Delivery Carrier Duties and Responsibilities, Chapter 2, Section 28
(updated with Postal Bulletin revisions through April 2001).

                                                    8
City Letter Carrier Operations –                                                   DR-AR-06-003
 Greater Indiana District


                                      2. Instruct station managers and delivery facility
                                         supervisors to review PS Forms 3996, Carrier –
                                         Auxiliary Control, and to take action to either approve
                                         or disapprove carrier requests.

                                      3. Require delivery facility supervisors and managers to
                                         keep route base information readily available that
                                         shows base parcels, accountables, and full coverage
                                         times.

 Management’s                      Management agreed with our findings and
 Comments                          recommendations. Management stated they will provide
                                   training to the supervisors at the Delivery Management
                                   Academy for Supervisors (DMAS). This customer service
                                   training program will be presented to all customer service
                                   Executive and Administration Schedule/Associate
                                   Supervisor Program (EAS/ASP) managers in the Greater
                                   Indiana District. DMAS training will provide basic delivery
                                   management information, which includes enforcing PS
                                   Form 3996 policy and maintaining route base information.

 Evaluation of                     Management’s comments are responsive to our findings and
 Management’s                      recommendations 1 through 3. Management’s action taken
 Comments                          or planned should correct the issues identified in the finding.




                                                 9
City Letter Carrier Operations –                                                                   DR-AR-06-003
 Greater Indiana District




 Supervisors’ Use of                   Supervisors and managers did not timely view DOIS reports
 Delivery Operations                   to assist in managing carrier activities. This occurred
 Information System                    because supervisors relied more on their experience to
 Reports                               manage operations. The DOIS Quality Assessment,
                                       September 9, 2002, states that it is critical that supervisors
                                       use DOIS to manage daily facility operations.

                                       As illustrated in Table 1, supervisors and managers need to
                                       enhance their use of the Workload Status, Route/Carrier
                                       Daily Performance, and MSP Overview Reports in a timely
                                       manner to manage their delivery operations.

                                                      Table 1. Supervisors’ DOIS Activity
                                                       January 1 Through May 31, 2005
                                                              (125 Working Days)
                                                                  Days               Days
                                                                Workload        Route/Carrier
                                                                 Status              Daily              Days
                                                               Report Not        Performance            MSP
                                         Six Randomly          Viewed or          Report Not          Overview
                                           Sampled             Not Viewed       Viewed or Not          Report
                                            Delivery             Before         Viewed Before            Not
                                           Facilities           8:30 a.m.          8:30 a.m.           Viewed
                                        XXXXXX                       56                 78               24
                                        XXXXXX                       0                  86               89
                                        XXXXXX                       35                 8                4
                                        XXXXXX                       11                 10               40
                                        XXXXXX                       7                  14               9
                                        XXXXXX                       3                  8                19

                                                  TOTAL              112               204               185
                                                             Source: Postal Service DOIS Reports


                                       The Workload Status Report was not viewed before
                                       8:30 a.m. in 112 of 75017 instances (15 percent). The
                                       Route/Carrier Daily Performance Report was not viewed
                                       before 8:30 a.m. in 204 of 750 instances (27 percent), and
                                       the MSP Overview Report was not viewed daily in 185 of
                                       750 instances (25 percent).

                                       The DOIS Quality Assessment, September 2002, states it is
                                       critical that supervisors use DOIS to manage daily facility
                                       operations and review reports in a timely manner. The
                                       Great Lakes Area MSP Standard Operating Procedures

17
     125 days multiplied by 6 DOIS delivery facilities equals 750.

                                                        10
City Letter Carrier Operations –                                                 DR-AR-06-003
 Greater Indiana District


                                   require supervisors to retrieve the MSP Overview Report
                                   daily and to review, annotate and document any
                                   noncompliance indicators.

                                   The district needs to improve its viewing of the Workload
                                   Status, Route/Carrier Daily Performance, and MSP
                                   Overview Reports at the appropriate time. Supervisors
                                   and managers did not always review these DOIS reports
                                   because they placed less focus on the reports and relied
                                   more on their experience in managing the unit. In addition,
                                   supervisors were not always sure how to review DOIS
                                   reports or how reviewing the reports would help them
                                   manage their operations.

                                   Supervisors hamper their ability to make effective decisions
                                   in matching workhours to workload by not reviewing
                                   operational and critical data such as mail volume, carrier
                                   performance, and street delivery activities in DOIS.
                                   Enhanced reviewing of DOIS helps delivery supervisors and
                                   managers take timely corrective action to address carriers’
                                   performance issues.

 Recommendations                   We recommend the manager, Greater Indiana District:

                                      4. Direct station managers and supervisors to review
                                         the Workload Status and Route/Carrier Daily
                                         Performance Reports by 8:30 a.m. so that workload
                                         can be accurately matched to workhours.

                                      5. Direct station managers and supervisors to comply
                                         with the Great Lakes AM Standard Operating
                                         Procedures, which require daily review of the
                                         Managed Service Points Overview Report.

                                      6. Develop an integrated training process that includes
                                         teaching, coaching, and training supervisors and
                                         managers in using the Delivery Operations
                                         Information System to manage office activities.

 Management’s                      Management agreed with our finding and recommendations.
 Comments                          Management stated that they will conduct a daily
                                   teleconference with the vital offices and conduct AM SOP
                                   audits, and Operations Programs Support will ensure that
                                   offices comply with the process to review DOIS reports,
                                   Workload Status, and Route/Carrier Daily Performance
                                   Reports by 8:30 a.m. Additionally, the DMAS training will

                                               11
City Letter Carrier Operations –                                                 DR-AR-06-003
 Greater Indiana District


                                   give supervisors information on how to review, edit, and
                                   manage DOIS reports and manage the MSP Overview
                                   Report.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations 4 through 6. Management’s actions
 Comments                          taken and planned should correct the issues identified in the
                                   finding.




                                                12
City Letter Carrier Operations –                                                   DR-AR-06-003
 Greater Indiana District




 Managed Service                   Delivery facility managers did not consistently use MSP
 Points Base                       base information to effectively monitor carrier street
 Information                       performance. We reviewed MSP base information for all
                                   routes at the six randomly sampled delivery facilities, and
                                   identified 99 of 217 routes where office or street times had
                                   excessive interval times between the scheduled scan times
                                   for last delivery and return to office.

                                   The excessive interval times were the result of managers
                                   and supervisors not updating the route pivot plan to include
                                   the carrier’s lunch break. The route pivot plan is a detailed
                                   description of the route that the city delivery carrier should
                                   follow while delivering mail on the street. The manager or
                                   supervisor must update the pivot plan to reflect any changes
                                   to the route to ensure the correct placement of MSP scan
                                   points. In addition, the Great Lakes Area MSP policy,
                                   September 2002, requires supervisors to retrieve the MSP
                                   Overview Report daily to review performance.

                                   Delivery managers and supervisors stated they did not add
                                   the carrier’s lunch break because carriers did not always
                                   take one.

                                   As a result of not updating the route pivot plan to include the
                                   carrier’s lunch break, supervisors impact their ability to
                                   effectively manage carriers’ street performance.

 Recommendation                    We recommend the manager, Greater Indiana District:

                                   7. Direct station managers and supervisors to insert the
                                      lunch interval in the Delivery Operations Information
                                      System’s pivot plans at the proper location on each
                                      route.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          Management stated that the DMAS training program, which
                                   will be presented to all customer service EAS/ASP
                                   managers in the Greater Indiana District, will instruct station
                                   managers and supervisors to insert the lunch interval in
                                   pivot plans.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendation. Management’s action taken should
 Comments                          correct the issue identified in the finding.


                                                13
City Letter Carrier Operations –                                                                     DR-AR-06-003
 Greater Indiana District




 Unauthorized Time                   Supervisors and managers at the six delivery facilities
                                     sampled did not always properly track and document letter
                                     carriers’ unauthorized overtime occurrences. For example,
                                     four of the delivery facilities had no PS Form 1017-B log
                                     entries. Supervisors said they talked with carriers about
                                     unauthorized overtime, but did not often track occurrences
                                     and fill out the PS Form 1017-B log.

                                     As shown in Table 2, 71 PS Form 1017-B entries were
                                     recorded for all 120 sampled days in the 5-month period
                                     January 1 through May 31, 2005. However, two of the
                                     six delivery facilities accounted for the total PS Form 1017-B
                                     log entries.

                                      Table 2. Summary of the PS Form 1017-B Log Entries for the
                                       Six Delivery Facilities, from January Through May, 200518

                                                 Six Randomly
                                               Sampled Delivery                    Total Number of
                                                   Facilities                       1017-B entries
                                              XXXXXX                                         0
                                              XXXXXX                                         0
                                              XXXXXX                                         0
                                              XXXXXX                                         36
                                              XXXXXX                                         35
                                              XXXXXX                                         0
                                                   OVERALL                                   71
                                                      Source: Postal Service Delivery Facility Records


                                     Supervisors said documenting unauthorized overtime was
                                     not a high priority. In addition, some supervisors stated they
                                     felt that documenting the unauthorized overtime in the Time
                                     and Attendance Collection System satisfied the required
                                     documentation.

                                     Handbook F-401, Supervisor’s Guide to Scheduling and
                                     Premium Pay, Chapter, 5, Section F, August 2000, states

                                            . . . employees are responsible for adhering to
                                            their assigned work schedules. A variance
                                            from the assigned work schedule will result in
                                            unauthorized overtime. Supervisors must
                                            document these occurrences on PS
18
  Twenty randomly selected days for each delivery facility, multiplied by six delivery facilities, equals
120 possible days.

                                                       14
City Letter Carrier Operations –                                                  DR-AR-06-003
 Greater Indiana District


                                        Form 1017-B and take corrective action.

                                   Because supervisors did not document unauthorized
                                   overtime, they could not effectively consult with each other
                                   and correct carrier performance issues to assist in
                                   managing overtime hours.

 Recommendation                    We recommend the manager, Greater Indiana District:

                                   8. Reinforce the policy in Handbook F-401, Supervisor’s
                                      Guide to Scheduling and Premium Pay, to properly
                                      complete PS Form 1017-B, Unauthorized Overtime
                                      Record, to document unauthorized overtime, and take
                                      corrective action.

 Management’s                      Management agreed with our finding and recommendation.
 Comment                           Management stated that the training provided in DMAS will
                                   reinforce the requirement to properly complete PS
                                   Form 1017-B to document unauthorized overtime and
                                   take corrective action.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendation. Management’s action taken should
 Comments                          correct the issue identified in the finding.




                                                15
City Letter Carrier Operations –                                                                                                                                                                DR-AR-06-003
 Greater Indiana District


               APPENDIX A. SUMMARY OF 120 “3996 AUDITS”




                                                                                               Total Unjustified Time in Minutes
                                                                Total Time Used Greater Than




                                                                                                                                                                                                No PS Form 3996 but Route
                                                                                                                                                                    Total Routes Greater Than
                                                                                                                                   Total Unjustified Percent




                                                                                                                                                                                                Greater Than 8 Hours
                                                                8 Hours in Minutes
                 Delivery Facility




                                                  Day of Week
    Number




                                                                                                                                                                    8 Hours
                                       Date



        1    XXXXX                   01/03/05   Mon.                           3351             3175                                                           95                   33                                      29
        2    XXXXX                   01/04/05   Tues.                         2411              2410                                                   100                          27                                      23
        3    XXXXX                   01/10/05   Mon.                           2653             2627                                                           99                   33                                      28
        4    XXXXX                   01/25/05   Tues.                                 916                           916                                100                          16                                      14
        5    XXXXX                   02/01/05   Tues.                                 973                           956                                        98                   20                                      15
        6    XXXXX                   02/05/05    Sat.                                 307                           297                                        97                         9                                  6
        7    XXXXX                   02/24/05   Thurs.                         1739             1671                                                           96                   26                                      21
        8    XXXXX                   03/05/05    Sat.                                 439                           439                                100                          10                                       9
        9    XXXXX                   03/11/05    Fri.                                 442                           425                                        96                   16                                      15
    10       XXXXX                   03/18/05    Fri.                          1104             1023                                                           93                   22                                      16
    11       XXXXX                   03/25/05    Fri.                                 653                           644                                        99                   12                                       7
    12       XXXXX                   03/26/05    Sat.                                 459                           454                                        99                         8                                  6
    13       XXXXX                   03/28/05   Mon.                           1486             1450                                                           98                   21                                      18
    14       XXXXX                   03/29/05   Tues.                                 484                           424                                        88                         8                                  4
    15       XXXXX                   03/30/05   Wed.                           1881             1867                                                           99                   21                                      19
    16       XXXXX                   04/21/05   Thurs.                        1066                                  919                                        86                   18                                      15
    17       XXXXX                   04/25/05   Mon.                           2464             2389                                                           97                   28                                      21
    18       XXXXX                   04/28/05   Thurs.                                644                           607                                        94                         9                                  8
    19       XXXXX                   04/30/05    Sat.                                 385                           350                                        91                         7                                  6
    20       XXXXX                   05/26/06   Thurs.                                789                           733                                        93                   10                                       6
    21       XXXXX                   01/03/05   Mon.                           2318             2294                                                           99                   27                                      23
    22       XXXXX                   01/07/05    Fri.                          1723             1707                                                           99                   22                                      19
    23       XXXXX                   01/10/05   Mon.                           1368             1307                                                           96                   23                                      18
    24       XXXXX                   01/14/05    Fri.                                 946                           946                                100                          18                                      18
    25       XXXXX                   01/21/05    Fri.                          1961             1927                                                           98                   25                                      18
    26       XXXXX                   01/27/05   Thurs.                         1386             1368                                                           99                   23                                      19
    27       XXXXX                   02/07/05   Mon.                                  648                           631                                        97                   18                                      16
    28       XXXXX                   02/09/05   Wed.                          1071              1071                                                   100                          23                                      22
    29       XXXXX                   02/10/05   Thurs.                                310                           310                                100                                8                                  7
    30       XXXXX                   02/16/05   Wed.                           1231             1217                                                           99                   22                                      19



                                                                 16
City Letter Carrier Operations –                                                                                                                                                                DR-AR-06-003
 Greater Indiana District




                                                                                               Total Unjustified Time in Minutes
                                                                Total Time Used Greater Than




                                                                                                                                                                                                No PS Form 3996 but Route
                                                                                                                                                                    Total Routes Greater Than
                                                                                                                                   Total Unjustified Percent




                                                                                                                                                                                                Greater Than 8 Hours
                                                                8 Hours in Minutes
                 Delivery Facility




                                                  Day of Week
    Number




                                                                                                                                                                    8 Hours
                                       Date
    31       XXXXX                   02/28/05   Mon.                                  682                           630                                        92                   12                                       9
    32       XXXXX                   03/05/05    Sat.                                 465                           386                                        83                         6                                  4
    33       XXXXX                   03/17/05   Thurs.                                815                           815                                100                          20                                      16
    34       XXXXX                   04/08/05    Fri.                                 669                           669                                100                                7                                  5
    35       XXXXX                   04/21/05   Thurs.                                412                           330                                        80                         7                                  3
    36       XXXXX                   05/06/05    Fri.                                 360                           360                                100                                7                                  6
    37       XXXXX                   05/12/05   Thurs.                                583                           583                                100                          12                                      11
    38       XXXXX                   05/20/05    Fri.                                 315                           310                                        98                         7                                 5
    39       XXXXX                   05/24/05   Tues.                                 191                           191                                100                                5                                  4
    40       XXXXX                   05/25/05   Wed.                                  387                           387                                100                          14                                      14
    41       XXXXX                   01/05/05   Wed.                           5874             5598                                                           95                   45                                      25
    42       XXXXX                   01/11/05   Tues.                         4410              4339                                                           98                   38                                      32
    43       XXXXX                   01/15/05    Sat.                         4669              4481                                                           96                   41                                      28
    44       XXXXX                   01/25/05   Tues.                         3897              3620                                                           93                   37                                      21
    45       XXXXX                   01/28/05    Fri.                          5307             4942                                                           93                   47                                      30
    46       XXXXX                   02/02/05   Wed.                           5751             5046                                                           88                   46                                      21
    47       XXXXX                   02/04/05    Fri.                          2973             2506                                                           84                   34                                      12
    48       XXXXX                   02/24/05   Thurs.                         5924             5476                                                           92                   41                                      13
    49       XXXXX                   02/25/05    Fri.                          3693             3405                                                           92                   38                                      18
    50       XXXXX                   03/01/05   Tues.                         2819              2763                                                           98                   29                                      16
    51       XXXXX                   03/07/05   Mon.                           5302             4671                                                           88                   47                                      21
    52       XXXXX                   03/11/05    Fri.                          3221             3144                                                           98                   38                                      31
    53       XXXXX                   03/25/05    Fri.                          4068             3888                                                           96                   42                                      28
    54       XXXXX                   03/31/05   Thurs.                         1991             1800                                                           90                   29                                      20
    55       XXXXX                   04/01/05    Fri.                          2735             2587                                                           95                   35                                      18
    56       XXXXX                   04/11/05   Mon.                           2578             2258                                                           88                   36                                      12
    57       XXXXX                   04/20/05   Wed.                           2297             2142                                                           93                   34                                      18
    58       XXXXX                   04/22/05    Fri.                          1705             1597                                                           94                   25                                      12
    59       XXXXX                   05/11/05   Wed.                           3520             3451                                                           98                   40                                      20
    60       XXXXX                   05/17/05   Tues.                         2297              2151                                                           94                   34                                      15
    61       XXXXX                   01/04/05   Tues.                         1066                                  415                                        39                   21                                       2
    62       XXXXX                   01/06/05   Thurs.                         3736             2763                                                           74                   31                                       8


                                                                 17
City Letter Carrier Operations –                                                                                                                                                                DR-AR-06-003
 Greater Indiana District




                                                                                               Total Unjustified Time in Minutes
                                                                Total Time Used Greater Than




                                                                                                                                                                                                No PS Form 3996 but Route
                                                                                                                                                                    Total Routes Greater Than
                                                                                                                                   Total Unjustified Percent




                                                                                                                                                                                                Greater Than 8 Hours
                                                                8 Hours in Minutes
                 Delivery Facility




                                                  Day of Week
    Number




                                                                                                                                                                    8 Hours
                                        Date
    63       XXXXX                   01/24/05   Mon.                           1882             1676                                                           89                   29                                       5
    64       XXXXX                   01/27/05   Thurs.                                406                           317                                        78                   15                                      5
    65       XXXXX                   02/08/05   Tues.                                 472                           312                                        66                   14                                       0
    66       XXXXX                   02/19/05    Sat.                                 652                           472                                        72                   12                                       3
    67       XXXXX                   02/24/05   Thurs.                                376                           326                                        87                   10                                      8
    68       XXXXX                   02/26/05    Sat.                                 250                           250                                100                          10                                      10
    69       XXXXX                   03/04/05    Fri.                                 368                           368                                100                                2                                  2
    70       XXXXX                   03/05/05    Sat.                                 253                           228                                        90                         7                                  0
    71       XXXXX                   03/12/05    Sat.                         2293              2031                                                           89                   30                                      17
    72       XXXXX                   03/15/05   Tues.                                 396                           367                                        93                   15                                      14
    73       XXXXX                   03/23/05   Wed.                                  396                           366                                        92                   15                                      10
    74       XXXXX                   03/24/05   Thurs.                                355                           257                                        72                         5                                  2
    75       XXXXX                   03/28/05   Mon.                                  426                           426                                100                          13                                       2
    76       XXXXX                   04/07/05   Thurs.                                669                           511                                        76                   14                                      6
    77       XXXXX                   04/28/05   Thurs.                                844                           739                                        88                   16                                      8
    78       XXXXX                   05/03/05   Tues.                                 455                           422                                        93                   14                                      11
    79       XXXXX                   05/10/05   Tues.                                 851                           823                                        97                   22                                      18
    80       XXXXX                   05/24/05   Tues.                                 499                           347                                        70                   13                                       6
    81       XXXXX                   01/10/05   Mon.                          3626              3626                                                   100                          29                                      26
    82       XXXXX                   01/13/05   Thurs.                         2002             1975                                                           99                   29                                      26
    83       XXXXX                   01/14/05    Fri.                          3184             3133                                                           98                   29                                      20
    84       XXXXX                   01/26/05   Wed.                           1662             1613                                                           97                   26                                      13
    85       XXXXX                   01/31/05   Tues.                         2889              2843                                                           98                   29                                      15
    86       XXXXX                   02/03/05   Thurs.                         1561             1342                                                           86                   25                                       9
    87       XXXXX                   02/16/05   Wed.                                  156                           156                                100                                5                                  5
    88       XXXXX                   02/26/05    Sat.                                 579                           526                                        91                   12                                       9
    89       XXXXX                   02/28/05   Mon.                           1586             1334                                                           84                   27                                      16
    90       XXXXX                   03/03/05   Thurs.                         1432             1410                                                           98                   27                                      14
    91       XXXXX                   03/24/05   Thurs.                                114                           114                                100                                5                                 5
    92       XXXXX                   04/01/05    Fri.                                 799                           799                                100                                9                                  7
    93       XXXXX                   04/04/05   Mon.                           1968             1903                                                           97                   27                                      19
    94       XXXXX                   04/15/05    Fri.                                 461                           461                                100                                7                                  7


                                                                 18
City Letter Carrier Operations –                                                                                                                                                                   DR-AR-06-003
 Greater Indiana District




                                                                                                  Total Unjustified Time in Minutes
                                                                 Total Time Used Greater Than




                                                                                                                                                                                                   No PS Form 3996 but Route
                                                                                                                                                                       Total Routes Greater Than
                                                                                                                                      Total Unjustified Percent




                                                                                                                                                                                                   Greater Than 8 Hours
                                                                 8 Hours in Minutes
                 Delivery Facility




                                                  Day of Week
    Number




                                                                                                                                                                       8 Hours
                                       Date
    95       XXXXX                   04/19/05   Tues.                                  461                             284                                        62                         7                                  3
    96       XXXXX                   04/27/05   Wed.                            1361               1229                                                           90                   29                                      16
    97       XXXXX                   05/02/05   Mon.                            1869               1446                                                           77                   27                                      16
    98       XXXXX                   05/13/05    Fri.                                  648                             602                                        93                   18                                      11
    99       XXXXX                   05/17/05   Tues.                                  839                             839                                100                          19                                      19
   100       XXXXX                   05/24/05   Tues.                                  468                             464                                        99                   10                                       7
   101       XXXXX                   01/03/05   Mon.                           1507                1507                                                   100                          25                                      24
   102       XXXXX                   01/07/05    Fri.                          1780               1780                                                    100                          27                                      27
   103       XXXXX                   01/11/05   Tues.                                  809                             779                                        96                   17                                      14
   104       XXXXX                   01/12/05   Wed.                                   763                             752                                        99                         9                                  8
   105       XXXXX                   01/21/05    Fri.                                  630                             630                                100                          15                                      15
   106       XXXXX                   01/25/05   Tues.                          1119                1119                                                   100                          18                                      17
   107       XXXXX                   01/31/05   Mon.                           2577                2577                                                   100                          26                                      26
   108       XXXXX                   02/05/05    Sat.                                  644                             622                                        97                         9                                  6
   109       XXXXX                   02/24/05   Thurs.                         2528                2528                                                   100                          28                                      25
   110       XXXXX                   03/08/05   Tues.                          1220                1210                                                           99                   23                                      22
   111       XXXXX                   03/10/05   Thurs.                                 697                             692                                        99                   14                                      13
   112       XXXXX                   03/11/05    Fri.                                  912                             868                                        95                   12                                      11
   113       XXXXX                   03/12/05    Sat.                                  411                             369                                        90                   10                                       9
   114       XXXXX                   03/22/05   Tues.                          1134                1134                                                   100                          17                                      17
   115       XXXXX                   04/02/05    Sat.                          1029                1021                                                           99                   16                                      13
   116       XXXXX                   04/05/05   Tues.                                  855                             827                                        97                   18                                      16
   117       XXXXX                   04/08/05   Tues.                                  576                             559                                        97                   10                                       9
   118       XXXXX                   05/18/05   Wed.                                   529                             529                                100                          12                                      11
   119       XXXXX                   05/24/05   Tues.                          1065                1065                                                   100                          23                                      22
   120       XXXXX                   05/27/05    Fri.                                  238                             238                                100                                6                                  6
                TOTALS                                          182,851                         171,401                                                                2,455                                1,664




                                                                  19
  City Letter Carrier Operations –                                              DR-AR-06-003
   Greater Indiana District


                                         APPENDIX B

                    PROJECTION OF “3996 AUDIT” RESULTS
                          OVER 5-MONTH PERIOD


                                                                                Projected
                                         95 Percent   95 Percent                Hours Not
                         Projection of   Confidence   Confidence               Justified by
                          Unjustified      Interval     Interval               Workload in
                          Time (Point      (Lower        (Upper              5- month period
                           Estimate)      Bound) in    Bound) in    Relative (January – May
     Location             in Minutes       Minutes      Minutes    Precision      2005)
                            148,650        97,466      199,834      0.34 %        2,477
XXXXX

                            123,900        88,014      159,786      0.29 %        2,065
XXXXX

                            109,069        74,084      144,054      0.32 %        1,818
XXXXX

                            433,844       358,783      508,905      0.17 %        7,231
XXXXX

                            163,169       104,949      221,389      0.35%         2,719
XXXXX

                            88,481         48,449      128,513      0.45 %        1,475
XXXXX
                                            Overall
Greater
Indiana: 23                1,414,653      4,090,598    6,766,543     0.65         68,177
facilities




                                                 20
City Letter Carrier Operations –                                           DR-AR-06-003
 Greater Indiana District



                  APPENDIX C. TECHNICAL DOCUMENTATION

Sampling

An objective of the audit was to quantify the amount of unjustified time in the
Greater Indiana District in the Great Lakes Area. In support of this objective, the
audit team employed a two-stage sample of carrier time, selecting delivery units
and delivery days. The sample design allows statistical projection of the
unjustified time for individual sites and for the district.

Audit Universe

The team judgmentally selected the Greater Indiana District, which had
23 delivery units with 30 to 55 carrier routes. The audit universe consisted of
125 working days from January 1 through May 31, 2005.

Sample Design and Modifications

We chose a two-stage sample design, with simple random selection of delivery
units at the first stage. We used a simple random selection of delivery days at
the second stage. We examined all delivery routes on the days selected. We
had no information on the variability we might see between delivery units in this
district. To size the sample, we considered each delivery unit and delivery day
combination as a universe element (a total of 2,875 unit days19). We selected a
desired confidence level of 95 percent and, for sample size calculation purposes,
a desired relative precision for a variable estimate of 20 percent. We considered
coefficient of variation (CV) values of 100 percent and 125 percent. With
application of the finite population correction, these CVs generated sample sizes
of 95 to 145, respectively. We chose to use a total of 120 delivery unit days,
randomly selecting six delivery units at the first stage and then randomly
selecting 20 delivery days at each of the units.

Results

The value assigned to each delivery unit day is the total number of unjustified
minutes in a particular category. With the total time value as the variable, we
applied the equations to project a variable in a two-stage sample. We used the
equations from Chapter 9, Scheaffer, Mendenhall, and Ott, Elementary Survey
Sampling©, 1996. In Appendix B, we summarize the results for total unjustified
time.




19
     23 units times 125 days.

                                         21
City Letter Carrier Operations –                                                             DR-AR-06-003
 Greater Indiana District


                                          APPENDIX D

           OIG CALCULATION OF UNRECOVERABLE COSTS

The OIG identified $2,654,130.6120 in unjustified (unrecoverable) costs. OIG
calculated the unjustified costs through a random sample analysis of PS
Form 3996. The “3996 audit” process is an assessment of individual route time
greater than 8 hours. The audit process cannot differentiate between time that is
unjustified and time that is not supported by documentation. The Total Variance
Factor in the Postal Service’s WebEIS data system shows the difference
between projected workhours for the workload identified in DOIS and the actual
workhours used by carriers. Postal Service Headquarters management and the
OIG agreed to 50 percent of the WebEIS variance from January 1 through
May 31, 2005, which amounts to $765,487.40.21


                                   Workhours            Labor Rate              Cost
Unjustified workhours               68,177                $38.93            $2,654,130.61
identified by the OIG
from January 3 through
May 31, 2005, for
23 delivery facilities
with 30 to 55 routes
Workhours using Total               39,326.35              $38.93           $1,530,974.81
Variance in WebEIS for
January 1 through
May 31, 2005, for
23 delivery facilities
with 30 to 55 routes
Unrecoverable                       19,663.18              $38.93           $765,487.60
workhours identified by
using 50 percent of
WebEIS variance




20
   Postal Service Finance memorandum dated March 7, 2005, shows the national average labor rate for city
letter carriers in FY 2005 was $38.93. The 68,177 hours multiplied by $38.93 equals $2,654,130.61.
21
   Postal Service Finance memorandum dated March 7, 2005, shows the national average labor rate for city
letter carriers in FY 2005 was $38.93. The 39,326.35 hours multiplied by $38.93 equals $1,530,974.81.




                                                   22
City Letter Carrier Operations –                                          DR-AR-06-003
 Greater Indiana District


                                   APPENDIX E

                              PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019,
September 29, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Chicago District. Delivery
facility supervisors and managers did not adequately match workhours with
workload. We projected the sample results for a total of 78,248 unjustified hours
over the 5-month period September 1, 2004, through January 31, 2005, that
were not supported by volume or workload. We agreed with headquarters
delivery management to unrecoverable costs of $2,020,200. We also noted that
supervisors and managers did not always view DOIS reports in a timely manner
to manage operations, consistently use MSP to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.


City Letter Carrier Operations – Santa Ana District (Report Number
DR-AR-05-013, August 8, 2005). The report outlined opportunities to improve
the management of city letter carrier operations in the Santa Ana District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 83,864 unjustified
hours over the 5-month period May 1 through September 30, 2004, that were not
supported by volume or workload. We agreed with headquarters and Pacific
Area delivery management to unrecoverable costs of $2,127,852. We also noted
that supervisors and managers did not always view DOIS reports in a timely
manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – San Diego District (Report Number
DR-AR-05-014, August 8, 2005). The report outlined opportunities to improve
the management of city letter carrier operations in the San Diego District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 53,835 unjustified
hours over the 5-month period May 1 through September 30, 2004, that were not
supported by volume or workload. We agreed with headquarters and Pacific
Area delivery management to unrecoverable costs of $1,423,935. We also noted
that supervisors and managers did not always view DOIS reports in a timely
manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.



                                        23
City Letter Carrier Operations –                                      DR-AR-06-003
 Greater Indiana District



City Letter Carrier Operations – Rio Grande District (Report Number
DR-AR-05-009, December 2, 2004). The report outlined opportunities to improve
the management of city letter carrier operations in the Rio Grande District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the three delivery facilities had 5,318 unjustified
hours (at an estimated cost of $193,947) not supported by volume or workload
over the 5-month period October 1, 2003, through February 29, 2004. We
reported 2,543 of the unjustified hours – or $92,726 – as unrecoverable costs.
We also noted that supervisors and managers did not effectively use DOIS to
manage daily operations, and delivery unit supervisors and managers did not
consistently perform street management or effectively use MSP to monitor city
letter carriers’ street time to correct negative trends.




                                      24
City Letter Carrier Operations –                    DR-AR-06-003
 Greater Indiana District


                APPENDIX F. MANAGEMENT’S COMMENTS




                                   25
City Letter Carrier Operations –        DR-AR-06-003
 Greater Indiana District




                                   26
City Letter Carrier Operations –        DR-AR-06-003
 Greater Indiana District




                                   27
